May 19, 2010

DEBORAH J. JUDY
DIRECTOR, INFORMATION TECHNOLOGY OPERATIONS

CHARLES L. MCGANN, JR.
MANAGER, CORPORATE INFORMATION SECURITY

SUBJECT: Audit Report – Modem Security at the xxxxxxxxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxx (Report Number IS-AR-10-009)

This report presents the results of our self-initiated audit of modem security at the
                                                                 (Project Number
10RG013IT000). Our objective was to determine whether controls over modems are
adequate to protect information resources at the                    This audit addresses
operational risk. See Appendix A for additional information about this audit.

Modem security is essential to preserve the integrity and confidentiality of the U.S.
Postal Service network. Policy1 prohibits accessing the intranet via a modem without the
explicit approval of the manager, Corporate Information Security Office Information
Security Services. Unsecure or unauthorized modems may provide malicious users
undetected access to Postal Service information resources.

Conclusion

Security controls over modems are adequate to protect information resources at the
              . Using security software, we scanned 4,906 telephone numbers dedicated
to the               and identified five modems. We were unable to penetrate these
modems to gain access to information resources on the Postal Service network.
However, management can improve controls over modems by performing required
modem security assessments and properly accounting for modems.




1
 Handbook AS-805, Information Security, Section 5-5, Prohibited Uses of Information Resources, dated November
2009.
Modem Security at the                                                                               IS-AR-10-009




Modem Security Assessments

Management is not performing modem security assessments at the                    . This
occurred because management viewed the assessments as a lower priority to other
assessments including payment card industry scans and certifications and
accreditations. Administrators last performed an assessment of the                in
September 2007. Postal Service policy requires protection of the network infrastructure
through vulnerability scans, penetration testing, and assessments.2 By performing
modem security assessments, management can reduce the risk associated with
unauthorized or incorrectly configured modems that could provide malicious users with
unauthorized – and potentially undetected – access to Postal Service information
resources.

We recommend the manager, Corporate Information Security, direct the manager,
National Information System Security, to:

1. Periodically identify and assess modems at the
                   and communicate the results to the manager, Telecommunication
   Services.

Modem Accountability

Management does not maintain an asset inventory of modems. Policy3 requires
management to maintain an accurate inventory of modems to identify unauthorized
modems. This occurred because Postal Service management was relying on contract
service providers to properly account for the modems.4 Unauthorized modems could
provide users unintended – and potentially undetected – access to networked
information resources.

We recommend the director, Information Technology Operations, direct the manager,
Telecommunication Services, to:

2. Inventory and account for all modems installed at the


3. Use the security assessment results to reconcile modem inventories and identify and
   remove unauthorized modems from the network.




2
  Handbook AS-805, Section 11-1.2 (i), Network Infrastructure.
3
  Handbook AS-805, Section 11-3.2, Maintaining Network Asset Control.
4
  Management could not readily identify whether they approved the use of these modems and the applicable
contracts did not mention the modems. If management did approve the modems, they did so as part of a larger
network configuration.




                                                        2
Modem Security at the                                                       IS-AR-10-009




Management’s Comments

Management agreed with the recommendations. In response to recommendation 1,
National Information System Security will perform annual vulnerability assessments of
all identified modems within the infrastructure and communicate these results to the
manager, Telecommunication Services. Moreover, they will report unregistered
modems to the Computer Incident Response Team. In response to recommendations 2
and 3, Telecommunication Services will reconcile and maintain an approved inventory
of modems. Additionally, they will review modem inventories and remove unauthorized
modems from the network.

The target completion date for recommendations 1 and 3 is September 30, 2010. The
target completion date for recommendation 2 is June 1, 2010. See Appendix B for
management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
management’s corrective actions should resolve the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Frances E. Cain, director,
Information Technology, or me at 703-248-2100.


   E-Signed by Darrell E. Benjamin, Jr
   VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Revenue and Systems

Attachments

cc: Ross Philo
    Charles L. McGann
    Raymond J. Iandolo
    Larry K. Wills
    Sally K. Haring




                                           3
Modem Security at the                                                                               IS-AR-10-009



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The                provides network infrastructure services to Postal Service business
units at over 38,000 sites. Telecommunication Services is responsible for providing the
Postal Service with voice and data communications. Corporate Information Security is
responsible for ensuring Postal Service information resources operate in a secure and
trusted environment.

Modems are devices that transmit data over telephone wires by modulating data into an
audio signal to send information and demodulating an audio signal into data to receive
the information. Modem security is essential to ensure the confidentiality and integrity of
information resources. Postal Service policy prohibits accessing the intranet via
modems without explicit approval of the manager, Corporate Information Security Office
Information Security Services. Malicious users typically implement war dialing5 to locate
vulnerable modems and manipulate them to access the network. The presence of
unsecure or unapproved modems attached to systems can provide users undetected
and unauthorized access to information resources. PhoneSweep® is a security audit
tool used to identify security risks such as unsecure modems within a predefined range
of telephone numbers.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether controls over modems are adequate to protect
information resources at the               To achieve our objective, we obtained a list
of 4,906 telephone numbers dedicated to the                  From March 4 to 8, 2010,
we used PhoneSweep to assess these telephone numbers to identify active modems.
Using manual and automated techniques, we attempted to penetrate the identified
modems to determine whether the devices grant unauthorized access to Postal Service
information resources. We interviewed key officials and reviewed applicable Postal
Service policies, standards, and procedures.

We conducted this performance audit from February through May 2010 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. In addition, we used manual and
automated techniques to analyze computer-processed data and concluded the data
were sufficiently reliable to meet the report objective. We discussed our observations


5
 War dialing is a computer program used to identify telephone numbers that can successfully make a connection
with a computer modem.




                                                        4
Modem Security at the                                                         IS-AR-10-009



and conclusions with management officials on April 30, 2010, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE



                                                       Report       Final Report
                   Report Title                        Number           Date
     PhoneSweep Security Assessment at the          IS-CS-08-002 9/22/2008
           Information Technology and
     Accounting Service Center
     PhoneSweep Security Assessment at              IS-CS-08-003 9/22/2008
           Information Technology and
     Accounting Service Center

The reports listed above were issued as technical reports and, therefore, did not contain
formal recommendations. Instead, we urged system administrators to review and use
the detailed information in the reports as tools to assist in establishing priorities for
corrective action, and implementing repairs as necessary. Both reports noted
management did not maintain a current inventory of modems.




                                            5
Modem Security at the                                     IS-AR-10-009



                        APPENDIX B. MANAGEMENT COMMENTS




                                       6
Modem Security at the       IS-AR-10-009




                        7
